September 28, 2001
Audit Report No. 01-023


Audit of the FDIC’s Planning for the
Institution Data Management Project
Federal Deposit Insurance Corporation                                                                              Office of Audits
Washington, D.C. 20434                                                                                 Office of Inspector General



   DATE:              September 28, 2001

   TO:                John F. Bovenzi
                      Deputy to the Chairman and Chief Operating Officer

                      Chris Sale
                      Deputy to the Chairman and Chief Financial Officer


   FROM:              Russell A. Rau [Electronically produced version; original signed by Sharon M.
                      Smith]
                      Assistant Inspector General for Audits

   SUBJECT:           Report Entitled Audit of the FDIC’s Planning for the Institution Data
                      Management Project (Audit Report No. 01-023)


   The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General has completed
   an audit of the FDIC’s planning for the Institution Data Management (IDM) project. The overall
   objective of this audit was to monitor the progress of the IDM project and provide input at
   critical milestones or when conditions warranted. Because the IDM project was still in the
   planning stage as of the close of our audit, our work was limited to this phase of the project. As
   part of our audit, we evaluated whether the IDM project team was adequately coordinating with
   related application development projects and information technology (IT) initiatives.

   The purpose of this report is to provide you with some observations and recommendations that
   may help ensure the success of the IDM project. Providing this information during the planning
   phase of the project will afford you the opportunity to take appropriate actions at the earliest
   possible time. We may decide to initiate additional audit work on the IDM project when key
   deliverables, such as a project plan and high level requirements analysis, are completed.


   BACKGROUND

   The IDM project is a corporate-wide initiative to improve the collection, processing, storage, and
   dissemination of open financial institution data. Open institution data includes the basic
   structure 1 and financial data that the FDIC and other bank regulators use to supervise and
   regulate the nation’s 9,840 insured financial institutions. 2 The FDIC obtains open institution
   data from a variety of sources, such as Consolidated Reports of Condition and Income (i.e., Call

   1
      Structure data is non-financial data related to institutions, such as demographic, classification, event, and ownership
   data.
   2
     According to the FDIC Quarterly Banking Profile for the first quarter of 2001, the FDIC insured a total of 9,840
   financial institutions at the end of the first quarter of 2001.
Reports), Thrift Financial Reports, and other regulatory reports filed by insured financial
institutions. The FDIC also obtains open institution data from examinations performed by the
Divisions of Supervision (DOS) and Compliance and Consumer Affairs (DCA) and other federal
and state bank regulators.

A fundamental goal of the IDM project is to establish a single source for open institution data
that will be used by all corporate applications that need such data. The benefit of identifying a
single source for open institution data is that it would promote data sharing, integrity, and
consistency because all applications would use the same data. Currently, source data for open
institutions is fragmented among the FDIC’s information systems, allowing for potential data
redundancies and inconsistencies. In addition, a single source of open institution data would
promote standardization of data definitions and introduce efficiencies into the collection,
processing, storage, and use of institution data.

The IDM project was conceived in the summer of 2000 after the FDIC completed a corporate
impact analysis 3 (CIA) of a proposed IT project to modernize the FDIC’s Call Processing System
(Call). The Call CIA, dated July 2000, concluded that the scope of the Call modernization effort
should be broadened to include requirements for collecting, processing, and disseminating data
from a corporate perspective. This more strategic approach to addressing FDIC’s open
institution data requirements would be accomplished by deferring the Call modernization project
and establishing a new initiative called IDM.

The FDIC established an IDM project team on December 20, 2000 to develop a project plan and
define the scope and requirements of the IDM project. The IDM project team is comprised of
representatives from DOS, DCA, and the Divisions of Insurance (DOI), Finance (DOF),
Research and Statistics (DRS), Resolutions and Receiverships (DRR), and Information
Resources Management (DIRM). An IDM advisory group comprised of senior managers from
DOS, DRS, and DIRM was also established in December 2000 to oversee the activities of the
IDM project team. 4 In addition, the entire IDM effort is monitored by the Chief Information
Officer (CIO) and the directors of DOS and DRS. The CIO and the directors of DOS and DRS
monitor the project through briefings and correspondence.

As part of the Corporation’s 2001 IT budget formulation process, the FDIC approved $473,994
in IT funds to support the planning and requirements definition of the IDM project during 2001.
In addition, DIRM estimated the 5-year life cycle cost to develop and implement IDM to be
approximately $14.5 million at the time the 2001 IT budget was developed. However, the $14.5
million estimate may change once a project plan and high level requirements analysis are
completed and approved for the project.

The IDM project team had not completely defined the scope or plans for the project as of the
close of our field work. However, it is anticipated that the project’s initial focus will be to
develop a high level architecture document illustrating the FDIC’s current process for managing
open institution data and how the current process will be improved by IDM. A Concept of
3
  A CIA is an in-depth analysis of a proposed IT project that evaluates its potential impact on the FDIC from an overall
corporate perspective.
4
  The IDM advisory group was subsequently renamed the IDM management team.


                                                            2
Operations document describing proposed solutions and timelines for integrating the FDIC’s
business processes and systems that use open institution data will also be developed to guide the
IDM effort. In addition, subprojects will be initiated to implement the IDM concept. IDM
subprojects could include the implementation of an institution data repository or the integration
of major business applications that use open institution data. Decisions regarding whether and
how to proceed with each IDM subproject will be based on formal cost-benefit analyses.

The IDM management team anticipates that the security requirements for open institution data,
including sensitivity levels and business rules defining access rights, will be considered as part of
the IDM effort. The requirements and activities of other federal and state bank regulators, such
as the Board of Governors of the Federal Reserve System and the Office of the Comptroller of
the Currency, will also be considered as part of the IDM project. The IDM management team
plans a phased approach to develop and implement the IDM concept over a 5-year period.


OBJECTIVE, SCOPE, AND METHODOLOGY

The overall objective of the audit was to monitor the progress of the IDM project and provide
input at critical milestones or when conditions warranted. Because the IDM project was still in
the planning stage as of the close of our audit, our work was limited to this phase of the project.
As part of the audit, we evaluated whether the IDM project team was adequately coordinating
with related application development projects and IT initiatives.

We conducted our audit from January 23, 2001 through May 25, 2001 in accordance with
generally accepted government auditing standards. A detailed discussion of the scope and
methodology of our audit is included as Appendix I. We also performed limited follow-up work
during the period June through August 2001 to clarify various issues and matters contained in the
report.


RESULTS OF AUDIT

The IDM project presents the FDIC with opportunities to improve the manner in which it
collects, processes, stores, and disseminates open institution data. However, progress on the
project has not met expectations. We are recommending that senior FDIC management ensure
consensus among the IDM project stakeholders before investing significant resources in the
project. We are also recommending that the IDM project team begin periodic reporting on the
status of the IDM project to senior FDIC management. Such reporting will promote a corporate
approach to the IDM concept and help keep the project’s scope, requirements, and progress on
target. Finally, the IDM project team will need to closely coordinate its work with related IT
projects and business process studies as the project moves forward so that resources are not
duplicated or unnecessarily expended. We are recommending that, as part of building consensus
among stakeholders, FDIC senior management ensure that such coordination takes place.




                                                 3
Progress on the IDM Project

Toward the close of our field work, the IDM project team began to make progress on the initial
planning phase of the project. However, overall progress on the IDM project has not met initial
projections. A conceptual framework for the IDM project had been outlined in an
August 10, 2000 memorandum from the DOS Director to the Chief Operating Officer (COO).
The memorandum indicated that a consultant would be solicited to facilitate requirements
definition and evaluation by October 31, 2000 and that the IDM project team would evaluate the
FDIC’s existing institution data requirements, examine alternative solutions, and develop new
requirements by March 2001. The memorandum also requested that the IDM project be made a
Corporate Operating Plan System (COPS)5 project.

As of the close of our field work in May 2001, the IDM project team had not obtained consultant
resources, and the target date to complete requirements definition had been pushed back from
March 2001 to June 2001. We performed follow-up work subsequent to the close of our field
work and learned that as of August 16, 2001, consultant resources had not been obtained and that
deliverables, including a project plan, had not been completed on the project. Further, the COO
and Chief Financial Officer (CFO) had decided to postpone making IDM a COPS project until
high level plans and requirements could be developed.

The FDIC’s 2001 Annual Performance Plan identifies the IDM project as a key step toward
accomplishing its annual performance goal of reducing costs and inefficiencies in the processing
and use of institution data. The plan establishes August 31, 2001 as the completion date for
analyzing and documenting the current and projected use of institution data throughout the FDIC
and developing recommendations to improve the efficiency of the FDIC’s institution data
management processes. The plan also establishes December 31, 2001 as the completion date for
developing functional, data, security, and performance requirements and project scope for phased
systems development efforts resulting from the IDM initiative. Based on the FDIC’s progress in
planning the IDM project to date, it is unlikely that the IDM project team will meet the milestone
dates contained in the 2001 Annual Performance Plan.

The FDIC’s 2001 Annual Performance Plan also requires that the IDM project team submit
quarterly progress reports on the project to the Corporate Operating Committee 6 and Corporate
Data Sharing Steering Committee (CDSSC). 7 However, as of August 16, 2001, progress reports
had not been submitted to these two committees. Periodic reporting on the status of the IDM
project to the Corporate Operating Committee would be an effective way to apprise senior FDIC
management of the project’s progress and identify potential problems in a timely manner. Such
reporting would also assist in communicating a collaborative vision for IDM throughout the
Corporation and promote a corporate approach to analyzing business requirements and
implementing IT solutions.


5
  COPS is a mainframe system used by the COO and Chief Financial Officer to monitor key corporate projects.
6
  The Corporate Operating Committee is an executive level committee comprised of the Chairman and officers of the
Corporation (CIO, CFO, COO, and select Division and Office Directors chosen by the Chairman).
7
  CDSSC was established to promote data sharing throughout the FDIC’s business operations. Membership on the
CDSSC consists of representatives of all FDIC divisions and the offices of the COO and CFO.


                                                         4
Competing priorities within the divisions participating in the IDM project may have contributed
to the project’s slow progress. Specifically, we noted that attendance of IDM project team
members at IDM meetings was sometimes lacking because of team member involvement in
other key corporate projects, such as development of the Virtual Supervisory Information on the
Net (ViSION)8 system and work to address new Call report requirements. Not meeting
established milestone dates on the IDM project will delay the implementation of efficiencies that
were expected when the project was approved. Delays could also affect the IDM project team’s
ability to secure IT funding for the project for the remainder of 2001 and 2002 and could
negatively impact related IT projects if plans for IDM cannot be established in a timely manner.

In June 2001, the CIO and the directors of DOS and DRS requested that the IDM project team
discontinue work on the project while the IDM management team re-evaluated the project’s
scope, objectives, and direction. This action was taken due to concerns regarding the project’s
broad scope and lack of progress in completing deliverables. On August 10, 2001, the COO,
CFO, and CIO requested that a “white paper” be prepared for the IDM project. The purpose of
the white paper was to describe the project’s costs and benefits, potential alternatives, role in the
strategic direction of the Corporation, and issues that are important to its completion.

The IDM management team submitted its white paper to the COO, CFO, and CIO on
August 17, 2001. The white paper identified three basic alternatives: (1) cancel the IDM
concept, (2) halt ongoing systems development efforts while more in-depth analysis is performed
on the IDM concept, or (3) proceed with the IDM project under a reduced scope. The IDM
management team recommended that the COO, CFO, and CIO adopt the third option to proceed
with the IDM project under a reduced scope. As of the date of this report, management was
evaluating how to proceed with IDM as part of its 2002 corporate business and IT planning
process.

Given the IDM project’s less than anticipated progress to date, developing the IDM white paper
is a positive step. The COO and CFO should take this opportunity on the project to ensure
consensus among all IDM project stakeholders regarding the project’s goals and objectives,
scope, approach, schedule, level of staff effort, costs, and benefits. Because the IDM project will
impact all FDIC divisions and offices that use open institution data, all stakeholders should be
included as full decision-making partners throughout the requirements definition process. Any
potential impediments to the success of the IDM project should also be evaluated before
proceeding with the project.


Coordination with Related IT Projects

At the time of our field work, the IDM project team had not coordinated plans for IDM with the
users or developers of corporate applications that may be affected by IDM. Coordination had not
taken place because high level plans and requirements for IDM had not yet been defined or


8
  ViSION is a multi-year IT initiative to modernize and consolidate the work processes of the DOS regional office case
managers. Previously known as the Banking Information Tracking System (BITS) redesign project, ViSION will
replace the more than 100 subsystems and reports that comprise BITS with an integrated Web-based application.


                                                           5
prioritized by the IDM project team. Accordingly, it was not possible for the IDM project team
to determine which corporate applications would be impacted by IDM.

If a decision is made to proceed with the IDM project, the IDM project team will need to identify
those IT projects that have potential overlap with IDM, such as FDICconnect 9 and ViSION, and
closely coordinate with those projects to ensure that resources are not duplicated or unnecessarily
expended. The IDM project team will also need to consider the results of ongoing business
process studies, such as the DOS Process Redesign initiative, 10 when developing requirements
for IDM. As part of its efforts to reach consensus on the IDM project, senior management
should ensure that IDM is properly coordinated with other IT and business process initiatives.


CONCLUSION

Progress on the IDM project has not met expectations. Recent action taken by the COO, CFO,
and CIO to request a white paper for the IDM project is a step in the right direction and should
help IDM project stakeholders reach consensus on its scope and direction. Periodic reporting to
senior FDIC management on the status of IDM as described in the 2001 Annual Performance
Plan will also promote a corporate approach to the IDM concept and help ensure that the
project’s scope, requirements, and progress stay on target.


Recommendations

We recommend that the COO and CFO:

(1) Ensure consensus among the IDM project stakeholders regarding the project’s goals
    and objectives; scope; approach, including the coordination of IDM with other IT and
    business process initiatives; deliverables; schedule; level of staff effort; costs; and benefits.

(2) Require the IDM project team to begin submitting project status reports to the
    Corporate Operating Committee and the Corporate Data Sharing Steering Committee as
    provided in the FDIC’s 2001 Annual Performance Plan.


CORPORATION COMMENTS AND OIG EVALUATION

On September 26, 2001, the COO and CFO provided a joint written response to the draft audit
report. The COO and CFO agreed with the report’s findings and recommendations and provided

9
   FDICconnect is a corporate initiative to establish electronic commerce between the FDIC and insured financial
institutions. FDICconnect will initially provide institutions with customized views of demographic, financial, and
economic data. Subsequent enhancements will include processing of business transactions.
10
    DOS is conducting a process redesign initiative to evaluate its current bank supervisory policies, procedures, and
practices. DOS anticipates that changes resulting from the process redesign initiative will improve the efficiency of its
supervisory processes and assist the FDIC in responding to ongoing changes in the banking industry, such as the
introduction of new technology and legislation.


                                                           6
the elements necessary for management decisions on both of the report’s recommendations. The
COO and CFO’s response is presented in its entirety in Appendix II of this report.

Regarding recommendation 1, the COO and CFO indicated that a full-time project manager
would be assigned to the IDM project. The IDM project manager will be responsible for
defining the project’s scope, overseeing the development of project plans, and justifying
proposed IT expenditures. To ensure a corporate perspective on the project, the IDM project
manager will report directly to the IDM management team. Participation on the IDM project
from all FDIC business units will also be required to ensure that all corporate perspectives and
requirements are considered.

Additionally, the IDM project team will consult with the CDSSC and the CDSSC Collaborative
Working Group on Open Institution Data to ensure that input and consensus is obtained from
stakeholders throughout the Corporation. The COO and CFO stated in their response that the
CDSSC Collaborative Working Groups are organized for the purpose of informing and gathering
input from stakeholders and would be the appropriate vehicle for reaching consensus regarding
IDM initiatives. Further, as with all IT development projects, significant IDM expenditures will
require approval through existing corporate planning and budget processes. These processes
require significant documentation and justification, including corporate impact and cost-benefit
analysis, before funding is authorized.

Regarding recommendation 2, the COO and CFO indicated that the IDM management team will
provide quarterly progress reports, at a minimum, to senior FDIC management. We spoke with
representatives of management on September 28, 2001 and determined that, for the purpose of
recommendation 2, the term senior FDIC management will include the COO, CFO, CIO, and
CDSSC. It will not include the FDIC’s Corporate Operating Committee. Management believes
that the COO, CFO, CIO, and CDSSC are the most appropriate officials to receive IDM status
reports. This satisfies the intent of our recommendation. The COO and CFO also indicated in
their response that IDM progress reports will include summary project plans, goals and
milestones, resources needed to meet objectives, and issues that need to be addressed by senior
FDIC management to achieve project goals. The IDM management team will be required to
seek approval from senior FDIC management for any significant changes in scope, priorities, and
schedules.




                                                 7
                                                                                  APPENDIX I
                              SCOPE AND METHODOLOGY

To accomplish our audit objective, we interviewed key DIRM and program office personnel who
were involved with the IDM project. We also attended meetings held by the IDM project team
to observe progress on planning and requirements definition. In addition, we spoke with DIRM
and program office personnel who were responsible for maintaining the major corporate
applications that might be impacted by IDM to become familiar with those applications and to
make a general determination as to whether they were being adequately coordinated with IDM.
We also reviewed relevant documents, such as the FDIC’s 2001 Annual Performance Plan, IT
Strategic Plan, select division-level strategic IT plans, the Call CIA, the IDM white paper, and
various application- specific IT plans to become familiar with IDM and its potential corporate
impact.

We conducted our audit from January 23, 2001 through May 25, 2001 in accordance with
generally accepted government auditing standards. We also performed limited follow-up work
during June and August 2001 to clarify various issues and matters contained in the report.




                                               8
                                                                                    APPENDIX II
                                 CORPORATION COMMENTS

             FEDERAL DEPOSIT INSURANCE CORPORATION, Washington, DC 20429
DEPUTY TO THE CHAIRMAN


                                                             September 26, 2001


MEMORANDUM TO:                Gaston L. Gianni, Jr.
                              Inspector General

FROM:                         John F. Bovenzi [Electronically produced version; original signed
                              by John F. Bovenzi]
                              Deputy to the Chairman and Chief Operating Officer

                              Chris Sale [Electronically produced version; original signed by
                              Chris Sale ]
                              Deputy to the Chairman and Chief Financial Officer

SUBJECT:                      Audit of the FDIC's Planning for the Institution
                              Data Management

We appreciate the opportunity to comment on the recommendations presented in the OIG's draft
report, Audit of the FDIC’s Planning for the Institution Data Management Project . As the report
points out, the Institution Data Management (IDM) project presents the FDIC with opportunities
to improve processes for collecting, validating and disseminating open institution data.

The FDIC and most of its divisions and offices rely heavily on open institution data to conduct
business. IDM seeks to provide a corporate framework to guide future systems development and
business processes to supply FDIC stakeholders with more accurate, timely, useful and consistent
information at a lower cost.

IDM is a departure from prior data management efforts in two important ways. First, in order to
bring a corporate perspective to open institution data management, the IDM project would not be
controlled, staffed or funded by any one division or office. Second, IDM is primarily focused on
improving business processes and fulfilling the business requirements of all FDIC offices and
divisions. To that end, IT solutions are secondary considerations.

Recommendation 1: Senior FDIC management should ensure consensus among the IDM
project stakeholders before investing significant resources in the project.

In this regard, a full-time project manager will be assigned to define the scope of the project,
directly oversee the development of project plans, and justify proposed IT expenditures. To
ensure that this project brings a corporate perspective to data management, the project manager
will report directly to the IDM Management Team. As the White Paper prepared by the IDM


                                                9
Management Team points out, participation will be required from all FDIC business units to
ensure that all corporate perspectives and requirements are taken into account. The IDM project
team will be directed to consult with the Corporate Data Sharing Steering Committee (CDSSC)
and the CDSSC Collaborative Working Group on Open Institution Data to ensure that input and
consensus is obtained from stakeholders throughout the Corporation. The CDSSC Collaborative
Working Groups are organized for the purpose of informing and gathering input from
stakeholders and would be the appropriate vehicle for reaching consensus regarding IDM
initiatives. As with all IT development projects, significant IDM expenditures will also require
approval through existing corporate planning and budget processes. These processes require
significant documentation and justification, including corporate impact and cost-benefit analysis,
before funding is authorized. Thus, a process is in place to obtain the consensus of IDM
stakeholders throughout the life of the IDM project.

Recommendation 2: The IDM Management Team should provide periodic reports to senior
FDIC management.

The IDM Management Team will provide quarterly progress reports, at a minimum, to FDIC
Senior Management. These progress reports will include summary project plans, goals and
milestones, resources needed to meet objectives, and issues that need to be addressed by FDIC
Senior Management to achieve project goals. The IDM Management Team will be required to
seek approval from FDIC Senior Management in regard to any significant changes in scope,
priorities, and schedules.

Again, thank you for the opportunity to comment on the draft report.




                                                10
                                                                                                                                          APPENDIX III
                                            MANAGEMENT RESPONSES TO RECOMMENDATIONS
The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual
reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are
necessary. First, the response must describe for each recommendation

   §    the specific corrective actions already taken, if applicable;
   §    corrective actions to be taken together with the expected completion dates for their implementation; and
   §    documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any
disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information
for management decisions is based on management’s written response to our report and subsequent discussions with management representatives.

                                                                                               Documentation                        Management
 Rec.                                                                   Expected              That Will Confirm       Monetary      Decision: Yes
Number         Corrective Action: Taken or Planned/Status             Completion Date           Final Action          Benefits         or No
            The COO and CFO indicated that a full-time project
            manager would be assigned to the IDM project to
            define the project’s scope, oversee the development
            of project plans, and justify IT expenditures. To                                      Documents
            ensure a corporate perspective on the project, the                                   designating the
            IDM project manager will report to the IDM                                        project manager and
                                                                                                                        Not
    1       management team and all FDIC business units will          December 1, 2001               project                            Yes
                                                                                                                     Quantifiable
            participate on the project. In addition, the IDM                                  representatives from
            project team will consult with the CDSSC and the                                   all FDIC business
            CDSSC Collaborative Working Group on Open                                                 units
            Institution Data to ensure that input and consensus
            is obtained from stakeholders throughout the
            Corporation.

                                                                              11
                                                                                       Documentation                      Management
 Rec.                                                            Expected             That Will Confirm     Monetary      Decision: Yes
Number      Corrective Action: Taken or Planned/Status         Completion Date          Final Action        Benefits         or No
         The COO and CFO indicated that the IDM
         management team will provide quarterly progress
         reports, at a minimum, to senior FDIC management.
         These progress reports will include summary
         project plans, goals and milestones, resources                               Quarterly progress
                                                                                                              Not
  2      needed to meet objectives, and issues that need to   First Quarter of 2002    reports to senior                      Yes
                                                                                                           Quantifiable
         be addressed by senior FDIC management to                                    FDIC management
         achieve project goals. The IDM management team
         will be required to seek approval from senior FDIC
         management for any significant changes in scope,
         priorities, and schedules.




                                                                       12
